HHS/OIG - Audit,"Using State Child Support Enforcement (IV-D) Agencies to Increase SCHIP Enrollment,"(A-01-01-02500)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Using State Child Support Enforcement (IV-D) Agencies to Increase SCHIP Enrollment," (A-01-01-02500)
March 13, 2002
Complete
Text of Report is available in PDF format (8.7 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the State of Connecticut could have enrolled many more children in health care programs
if the State child support enforcement agency and the State agency administering the State Childrens Health Insurance
Program (SCHIP) had done a better job of coordinating information maintained by each agency. Specifically, we estimate
potential enrollment in SCHIP could have increased from 8000 children to approximately 21,100 children (95 percent of the
States 1998 target). Further, our review showed that non-custodial parents could have contributed an estimated $10.9 million
of the $17.6 million that it would cost to enroll these children into SCHIP. Recommendations call for actions the State
needs to take to overcome the barriers to meeting these objectives. The State concurred with our recommendations.